              Audit Report



Administrative Costs Claimed by the
 Georgia Disability Adjudication
             Services




      A-04-13-13058 | November 2013
MEMORANDUM


Date:      November 4, 2013                                                   Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
           Atlanta
From:      Inspector General
Subject:   Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)

           The attached final report presents the results of our audit. Our objectives were to (1) evaluate the
           Georgia Disability Adjudication Services’ internal controls over the accounting and reporting
           of administrative costs; (2) determine whether the costs claimed were allowable and funds were
           properly drawn; and (3) assess, on a limited basis, the general security controls environment for
           the 6-month period October 1, 2011 through March 31, 2012.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Ann Robert, Acting Associate Commissioner for Disability Determinations
           Carla Krabbe, Associate Commissioner for Financial Policy and Operations
           Gary S. Hatcher, Senior Advisor for Records Management and Audit Liaison Staff
           Greg Schmieg, Executive Director, Georgia Vocational Rehabilitation Agency
           Awilda Danko, Director, Georgia Disability Adjudication Services
Administrative Costs Claimed by the Georgia Disability
Adjudication Services
A-04-13-13058
November 2013                                                             Office of Audit Report Summary

Objective                                  Our Findings

To (1) evaluate the Georgia Disability     The costs GA-DAS claimed for our audit period were allowable
Adjudication Services’ (GA-DAS)            and properly allocated, and the system of internal controls over the
internal controls over the accounting      accounting and reporting of administrative costs was effective. In
and reporting of administrative costs;     addition, GA-DAS properly drew Federal funds for the costs it
(2) determine whether the costs            claimed on Form SSA-4513 for the period reviewed. Finally, our
claimed were allowable and funds           limited review of GA-DAS’ controls over its physical security and
were properly drawn; and (3) assess,       personally identifiable information showed that controls were
on a limited basis, the general security   generally in place with the exception of two minor physical security
controls environment for the 6-month       weaknesses.
period October 1, 2011 through
March 31, 2012.                            Our Conclusions

Background                                 Overall, GA-DAS had effective internal controls over the
                                           accounting and reporting of administrative costs for the 6-month
Disability determination services          period October 1, 2011 through March 31, 2012. Our limited
(DDS) in each State or other               review of GA-DAS’ controls over its physical security and
responsible jurisdiction perform           personally identifiable information showed that controls were
disability determinations under the        generally in place. However, we identified two minor physical
Social Security Administration’s           security weaknesses. We discussed these issues with the regional
(SSA) Disability Insurance and             office; GA-DAS; and GA-DAS’ parent agency, the Georgia
Supplemental Security Income               Vocational Rehabilitation Agency, for their consideration and
programs. DDSs must perform such           action. Accordingly, we did not make any recommendations in this
determinations in accordance with          report.
Federal law and regulations. Each
DDS is responsible for determining         In commenting on the draft report, SSA and GA-DAS confirmed
claimants’ disabilities and ensuring       they had taken corrective actions on the two minor physical security
adequate evidence is available to          weaknesses we identified.
support its determinations.

To make proper disability
determinations, SSA authorizes each
DDS to purchase medical evidence to
supplement evidence obtained from the
claimants’ physicians or other treating
sources. SSA reimburses the DDS for
100 percent of allowable expenditures
up to its approved funding
authorization.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     General Security Controls ..........................................................................................................2
Conclusions ......................................................................................................................................3
Agency Comments ...........................................................................................................................3
Appendix A – Schedule of Total Costs Reported on Form SSA-4513—State Agency Report of
           Obligations for SSA Disability Programs.............................................................. A-1
Appendix B – Background, Scope, and Methodology ............................................................... B-1
Appendix C –Agency Comments ............................................................................................... C-1
Appendix D – Georgia Disability Adjudication Services’ Comments ....................................... D-1
Appendix E – Major Contributors...............................................................................................E-1




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

DDS                  Disability Determination Services

GA-DAS               Georgia Disability Adjudication Services

GA-DHS               Georgia Department of Human Services

GA-DoL               Georgia Department of Labor

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

POMS                 Program Operations and Manual System

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

U.S.C.               United States Code

Form
SSA-4513             State Agency Report of Obligations for SSA Disability Programs




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)
OBJECTIVE
To (1) evaluate the Georgia Disability Adjudication Services’ (GA-DAS) internal controls over
the accounting and reporting of administrative costs; (2) determine whether the costs claimed
were allowable and funds were properly drawn; and (3) assess, on a limited basis, the general
security controls environment for the 6-month period October 1, 2011 through March 31, 2012.

BACKGROUND
Disability determination services (DDS) in each State or other responsible jurisdiction perform
disability determinations under the Social Security Administration’s (SSA) Disability Insurance
and Supplemental Security Income programs. DDSs are required to perform such
determinations in accordance with Federal law and regulations. 1 Each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to support its
determinations.

To make proper disability determinations, SSA authorizes each DDS to purchase medical
examinations, X rays, and laboratory tests on a consultative basis to supplement evidence
obtained from the claimants’ physicians or other treating sources when medical and nonmedical
evidence is insufficient to make a disability determination. 2 SSA reimburses the DDS for
100 percent of allowable expenditures up to its approved funding authorization for costs reported
on a Form SSA-4513, State Agency Report of Obligations for SSA Disability Programs. 3 The
DDS withdraws Federal funds through the Department of the Treasury’s Automated Standard
Application for Payments system to pay for program expenditures.

GA-DAS’ main office is in Stone Mountain, Georgia, and its four branch offices are in Athens,
Dalton, Savannah, and Thomasville, Georgia. GA-DAS is a component of the Georgia
Vocational Rehabilitation Agency, within the Georgia Department of Human Services
(GA-DHS). On July 1, 2012, after our audit period, the State of Georgia organizationally
transferred GA-DAS from the Georgia Department of Labor (GA-DoL) to the newly created
Georgia Vocational Rehabilitation Agency. 4 Before this transfer, GA-DoL accounted for
GA-DAS’ disbursements, completed Forms SSA-4513, and prepared requests to transfer cash
from the Department of the Treasury to the State Treasurer. After the transfer, GA-DoL


1
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et seq., and 416.1001,
et seq.
2
    SSA, POMS, DI 39545.120.A. (April 20, 2007).
3
 SSA, POMS, DI 39501.020 B. (February 28, 2002), DI 39506.001.B. (March 12, 2002), and DI 39506.202.A.
(March 12, 2002).
4
 On April 19, 2012, Georgia’s Governor signed Georgia House Bill 1146 that created the Georgia Vocational
Rehabilitation Agency, effective July 1, 2012. The new agency is administratively attached to GA-DHS. GA-DHS
provides the Georgia Vocational Rehabilitation Agency with administrative support services in human resources,
contracts, procurement, financial, legal, facilities, and information technology.



Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)                      1
continued supporting GA-DAS and will do so until all its responsibilities are transferred to
GA-DHS.

For the 6-month audit period, October 1, 2011 through March 31, 2012, GA-DAS claimed total
costs of about $31 million. See Appendix A for the costs GA-DAS reported on Form SSA-4513
for the four major cost categories.

This is the second of a two-part audit of GA-DAS. In December 2012, we issued our first report
on Personnel Costs and Hiring Practices of the Georgia Disability Adjudication Services (A-04-
12-22135). For the first audit, we limited our work to the personnel costs GA-DAS claimed on
its Forms SSA-4513 for the 6-month audit period. Our current audit reviewed Medical, Indirect,
and All Other Non-personnel costs GA-DAS claimed on its Forms SSA-4513. For additional
background, scope, and methodology, see Appendix B.

RESULTS OF REVIEW
The costs GA-DAS claimed for our audit period were allowable and properly allocated, and the
system of internal controls over the accounting and reporting of administrative costs was
effective. In addition, GA-DAS properly drew Federal funds for the costs it claimed on Forms
SSA-4513 for the 6-month period reviewed. Finally, our limited review of GA-DAS’ controls
over its physical security and personally identifiable information showed that controls were
generally in place. However, we identified two minor physical security weaknesses, which we
shared with the regional office; GA-DAS; and GA-DAS’ parent agency, the Georgia Vocational
Rehabilitation Agency, for their consideration and action.

General Security Controls
SSA’s policy provides mandatory standards for adequately safeguarding systems and claimant
data along with discretionary guidelines for protecting DDS facilities and personnel. SSA
encourages DDSs to use the discretionary procedures to ensure ongoing security of personnel
and property. 5




5
    SSA, POMS, DI 39567.010.A. (October 2, 2008).



Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   2
Although our limited review of GA-DAS’ general security controls environment showed the
controls were generally effective, we identified two minor issues. First, GA-DAS needed to
better protect claimant folders and the sensitive personally identifiable information they
contained at its Thomasville office’s claims file room. Second, GA-DAS’ Security Plan did not
contain current information for its Athens office, which relocated in May 2012. Specifically, its
Security Plan did not accurately reflect the building’s physical description, evacuation meeting
place, and server room access for the new location. We discussed these issues with the regional
office; GA-DAS; and GA-DAS’ parent agency, the Georgia Vocational Rehabilitation Agency,
for their consideration and action.

CONCLUSIONS
Overall, GA-DAS had effective internal controls over the accounting and reporting of
administrative costs for the 6-month period October 1, 2011 through March 31, 2012. Our
limited review of GA-DAS’ controls over its physical security and personally identifiable
information showed that controls were generally in place. However, we identified two minor
physical security weaknesses. We discussed these issues with the regional office; GA-DAS; and
GA-DAS’ parent agency, the Georgia Vocational Rehabilitation Agency, for their consideration
and action. Accordingly, we did not make any recommendations in this report.

AGENCY COMMENTS
SSA and GA-DAS confirmed they had taken corrective actions on the two minor physical
security weaknesses identified in our audit (see Appendix C and Appendix D).




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)        3
                                        APPENDICES




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)
Appendix A – SCHEDULE OF TOTAL COSTS REPORTED ON
             FORM SSA-4513—S TATE AGENCY R EPORT OF
                         OBLIGATIONS FOR SSA DISABILITY P ROGRAMS
                      Table A–1: Total Costs Reported on Form SSA-4513

                          Georgia Disability Adjudication Services
                              (October 1, 2011 Through March 31, 2012)
           Reporting                                     Unliquidated                Total
                               Disbursements
             Items                                       Obligations               Obligations
        Personnel                    $18,064,567                         $0            $18,064,567
        Medical                         7,902,937                2,542,050              10,444,987
        Indirect                        1,870,333                          0              1,870,333
        All Other                       3,052,338                  629,790                3,682,128

        Totals                       $30,890,175               $3,171,840              $34,062,015




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)          A-1
Appendix B – BACKGROUND, SCOPE, AND METHODOLOGY
Background
The Disability Insurance program, established under title II of the Social Security Act, provides
benefits to wage earners and their families in the event the wage earner becomes disabled. 1 The
Supplemental Security Income program, established under title XVI of the Social Security Act,
provides benefits to financially needy individuals who are aged, blind, or disabled. 2

The Social Security Administration (SSA) is responsible for implementing policies to develop
disability claims under the Disability Insurance and Supplemental Security Income programs.
Disability determination services (DDS) in each State, Puerto Rico, Guam, the U.S. Virgin
Islands, and the District of Columbia perform disability determinations under both programs.
Such determinations must be performed in accordance with Federal law and underlying
regulation. 3 In carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring adequate evidence is available to support its determinations. To assist
in making proper disability determinations, SSA authorizes each DDS to purchase medical
examinations, X rays, and laboratory tests on a consultative basis to supplement evidence from
the claimants’ physicians or other treating sources when the evidence as a whole, both medical
and nonmedical, is insufficient to make a disability determination. 4

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s Automated Standard Application for Payments System to pay for program
expenditures. Funds drawn down must comply with Federal regulations 5 and intergovernmental
agreements entered into by the Department of the Treasury and States under the Cash
Management Improvement Act of 1990. 6 An advance or reimbursement for costs under the
program must comply with Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments. At the end of each quarter of the
Federal Fiscal Year, each DDS submits a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to account for program disbursements and unliquidated obligations.




1
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
    Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
3
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et seq. and 416.1001
et seq.
4
    SSA, POMS, DI 39545.120.A. (April 20, 2007).
5
    31 C.F.R. Part 205.
6
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).



Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)                   B-1
Scope
To accomplish our objectives, we reviewed the administrative costs the Georgia Disability
Adjudication Services (GA-DAS) reported on its Forms SSA-4513 for the 6-month period
October 1, 2011 through March 31, 2012. For this period, we obtained evidence to evaluate
recorded financial transactions and determine whether they were allowable under OMB Circular
A-87 and appropriate, as defined by SSA’s Program Operations Manual System (POMS).

We also:

•   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s POMS
    pertaining to administrative costs claimed by GA-DAS and draw down of the SSA funds.

•   Interviewed staff at GA-DAS, the Georgia Department of Labor, and SSA’s Atlanta Regional
    Office.

•   Evaluated and tested internal controls regarding accounting and financial reporting and cash
    management activities.

•   Reconciled the State’s electronic cost data to the administrative costs reported by GA-DAS
    on Forms SSA-4513 for the 6-month period October 1, 2011 through March 31, 2012.

•   Examined the Medical and All Other Non-personnel costs GA-DAS claimed on
    Forms SSA-4513 for the 6-month audit period.

•   Examined the indirect costs GA-DAS claimed for the 6-month audit period and the
    corresponding Cost Allocation Plan.

•   Compared the amount of SSA funds drawn to support program operations to the allowable
    expenditures reported on Forms SSA-4513 for the 6-month audit period.

•   Conducted limited general control testing, which encompassed reviewing the physical access
    security in GA-DAS branch facilities.

•   Reviewed policies and procedures related to personally identifiable information to determine
    whether GA-DAS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit objectives.
We assessed the reliability of the electronic data by reconciling them with the costs claimed on
Forms SSA-4513. We also conducted detailed audit testing on selected data elements in the
electronic data files.

We conducted our audit at GA-DASs in Stone Mountain, Athens, Dalton, Savannah, and
Thomasville, Georgia, as well as the Office of Audit in Atlanta, Georgia, from November 2012
through June 2013. We conducted our audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)    B-2
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Methodology
For this review, our sampling methodology encompassed three general areas of costs reported on
Forms SSA-4513: Medical, Indirect, and All Other Non-personnel. We obtained computerized
cost data from GA-DAS for our 6-month audit period October 1, 2011 through March 31, 2012.
We used the computerized data to select a statistical sample for our control tests.

Medical Costs
We sampled 50 medical evidence records and consultative examinations using a proportional
random sample.

Indirect Costs
We reviewed the indirect cost claimed during our audit period and the applicable cost allocation
plan.

All Other Non-Personnel Costs
We stratified All Other Non-personnel costs into eight categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases and Rental,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and (8) Miscellaneous.
For our control tests, we selected a stratified random sample of 50 items based on the percentage
of costs in each category—excluding the rent portion of Occupancy costs. For Occupancy costs,
we tested 100 percent of the rent portion of the costs charged during our audit period.

General Security Controls
We conducted limited general security control testing. Specifically, we reviewed the following
eight areas relating to general security controls: (1) Perimeter Security, (2) Internal Security,
(3) Physical Access Controls, (4) Visitor Access Guidelines, (5) Office Safety, (6) Personally
Identifiable Information, (7) Security Plan, and (8) Other Security Controls.




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   B-3
Appendix C –AGENCY COMMENTS
September 24, 2013

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: Draft Report – OIG Review of Administrative Costs Claimed by the Georgia
         Disability Adjudication Services A-04-13-13058 (Your Memorandum, 8/23/12)--
         REPLY

Thank you for the opportunity to comment on the draft audit report of the Georgia
Disability Adjudication Service’s (GA-DAS) administrative costs for the period
October 1, 2011, through March 31, 2012. We found this second phase of the Office of
Inspector General’s (OIG) audit of the GA-DAS to be detailed and comprehensive,
focusing on those cost areas affecting the non-personnel portion of their budget, as well
as the physical security of the GA-DAS’s five case processing offices.

While the auditors had no recommendations resulting from their review, they did identify
two minor physical security issues for consideration: removing paper folders from an
unsecure private office in the Thomasville branch office and updating the DAS’s
Security Plan to reflect the new Athens branch office address. Both of these items were
discussed during the exit conference with the GA-DAS and their parent agency, and
both were resolved prior to release of the audit report.


                                           Vicki Sincek for
                                        Michael W. Grochowski

cc:
DCO




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   C-1
Appendix D – GEORGIA DISABILITY ADJUDICATION
             SERVICES’ COMMENTS

September 30, 2013

Subject: RE: Signed Draft Report (A-04-13-13058)

Attached please find the GVRA response to the August OIG Report on Georgia’s DAS. A hard
copy of this response is also being mailed.

Thank you, and please let me know if you need anything additional.
Greg


Greg Schmieg
Executive Director
Georgia Vocational Rehabilitation Agency
2 Peachtree Street, NW
6th Floor
Atlanta, GA 30303-3142
(404) 232-7800
www.gvra.ga.gov




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   D-1
Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   D-2
Appendix E – MAJOR CONTRIBUTORS
Theresa Roberts, Acting Director

Frank Nagy, Audit Manager

Jordan Sherman, Auditor

Luis A. Ramirez, Audit Data Specialist




Administrative Costs Claimed by the Georgia Disability Adjudication Services (A-04-13-13058)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
